CERTIFICATE OF SERVICE

l; Sharon Brown, hereby certify that I have this 25th day of August 2021, served a copy of the
herein below listed document to the address listed below by depositing a copy of same in the
United States Postal System postage prepaid, and mailing same to:
Document: Petitiion For a Writ of Certiorari with attached Appendix to The Supreme Court of
The United States
PARTY SERVED:
Andrea E. White
White & Story, LLC
P.O.Box 7036
Columbia, S.C. 29202

SHARON BROWN
216 Ardmore Rd.
Spartanburg, S.C. 29306
(864)253-9975
Pro Se, Petitioner with

